Report No. D-2009-116         September 29, 2009




     Financial Management of International
     Military Education and Training Funds
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DFAS                          Defense Finance and Accounting Service
DOD FMR                       DOD Financial Management Regulation
DOS                           Department of State
DSAMS-T                       Defense Security Assistance Management System-Training
                              Module
DSCA                          Defense Security Cooperation Agency
IMET                          International Military Education and Training
JSAT                          Joint Security Assistance Training
SF                            Standard Form
                                       INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704


                                                                                September 29, 2009

MEMORANDUM FOR DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY


SUBJECT: Financial Management of Intemational Military Education and Training Funds
         (Report No. D-2009-116)

We are providing this report for your information and use. We considered management's
comments on our draft of this report in preparing the final repOlt. They confOlTIled to the
requirements of DOD Directive 7650.3 and left no unresolved issues. Therefore, we do not
require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                             I~a.m~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2009-116 (Project No. D2006-D000FD-0224.000)                 September 29, 2009


              Results in Brief: Financial Management of
              International Military Education and Training
              Funds

What We Did                                            What We Recommend
The International Military Education and               We recommend that DSCA:
Training (IMET) program is an assistance                  Review and revise current IMET
program that provides training to students from              guidance to comply with legal and
more than 108 allied and friendly nations.                   departmental requirements for
                                                             controlling grants.
We evaluated the financial management                     Request a preliminary review of the two
controls over the IMET program funds.                        student training programs identified in
Specifically, we reviewed whether training and               the report to determine whether their
related costs were properly funded, accounted                funding violated the Antideficiency Act.
for, and reported; and whether the Defense                Establish controls to effectively monitor
Security Cooperation Agency (DSCA) and                       and report IMET program status.
Military Departments consistently applied                 Establish consistent accounting practices
policies and regulations.                                    that each Military Department should
                                                             adopt for recording and processing
What We Found                                                IMET transactions.
DSCA did not properly manage the IMET
program to ensure that training was consistently       Management Comments and
funded, recorded, and reported. Specifically,
manuals and regulations were inconsistent with         Our Response
requirements for operating grant programs and          DSCA management provided responsive
contained conflicting guidance for processing          comments on our draft report and has taken
training funds. DSCA did not require a review          actions to implement our recommendations.
of funding when training programs changed, did         They are revising IMET policies and procedures
not require the Military Departments to clearly        to address the internal control weaknesses we
define and document the purpose of student             identified. Additionally, DSCA has
training, and included scheduling requirements         implemented a procedure to ensure that any
that are not necessary for grants. In addition,        changes to training are properly documented
DSCA did not ensure that the Military                  and funded. DSCA is also initiating a review of
Departments consistently applied regulations for       the codes used to identify training classes to
student reporting requirements, documenting            provide a clear link to the purpose of the
changes to student training programs, and              training. DSCA is requiring the Services to
recording and reviewing obligations.                   submit certified copies of their triannual
                                                       reviews. DSCA performed a review of the two
DSCA internal controls were not adequate. We           cases we identified in our report and provided
identified internal control weaknesses in the          additional information to determine they are not
management of the IMET program. DSCA did               potential Antideficiency Act violations under
not ensure that IMET funds were properly               applicable grant principles.
controlled and may have violated the
Antideficiency Act.

                                                   i
Report No. D-2009-116 (Project No. D2006-D000FD-0224.000)   September 29, 2009

Recommendations Table
Management                            Recommendations       No Additional
                                      Requiring Comment     Comments
                                                            Required
Defense Security Cooperation Agency   None                  1.a, 1.b, 2, 3.a, 3.b,
                                                            3.c, 4




                                             ii
Table of Contents

Introduction                                                            1

      Objectives                                                       1
      Background                                                       1
      Review of Internal Controls                                      2

Finding. DSCA Management of the International Military Education and
Training Program                                                        3

      Management Comments on the Finding and Our Response               9
      Recommendations, Management Comments, and Our Response           10

Appendix

      Scope and Methodology                                            13
           Prior Coverage                                              14

Management Comments

      Defense Security Cooperation Agency                              15
Introduction
Objectives
Our overall audit objective was to determine whether International Military Education
and Training (IMET) funds were being properly managed, utilized, and accounted for by
Defense Security Cooperation Agency (DSCA). Specifically, we reviewed the funding,
recording, accounting, and reporting of tuition, travel, living allowances, and medical
expenses of foreign students. We also reviewed the consistency of operations among the
Military Departments’ organizations that implement the training: the Army Security
Assistance Training Field Activity, the Navy Education Training Security Assistance
Field Activity, and the Air Force Security Assistance Training Squadron.

Background
The Foreign Assistance Act of 1961 authorized the IMET program to:

               (i) contribute to responsible defense resource management, (ii) foster
               greater respect for and understanding of the principle of civilian control
               of the military, (iii) contribute to cooperation between military and law
               enforcement personnel with respect to counternarcotics law
               enforcement efforts, or (iv) improve military justice systems and
               procedures in accordance with internationally recognized human rights.

The Department of State (DOS) has overall responsibility for the program and provides
guidance to DSCA, which manages the program. The IMET program provides training
to students from more than 108 allied and friendly nations. Congress appropriates IMET
funds each year under appropriation symbol 11x1081 . In FY 2006, Congress
appropriated $86 million for the IMET program. DSCA manages and issues these funds
to the Military Departments that are responsible for scheduling and providing training to
the foreign students.

Students usually come to the United States to receive training at a military facility. The
IMET program emphasizes:

                       the proper role of the military in a civilian-led, democratic
                        Government;

                       effective military justice systems and an understanding of
                        internationally recognized human rights;

                       effective defense resource management;

                       military professionalism; and

                       exposing the students to the American way of life.



                                                   1
At the time of our audit, DSCA was revising some of its processes. The Army and Navy
field activities were implementing a new computer system (the Defense Security
Assistance Management System-Training Module) to manage the security assistance
training programs, including IMET. The Air Force field activity is scheduled to
implement the system at a later date.

The Foreign Assistance Act of 1961 authorized the President to provide military
education and training to military and civilian personnel from allied and friendly
countries. Although the law authorizing IMET funds does not specifically state that
IMET is a grant program, the annual DOS Congressional Budget Justification, which
funds it, and DOD Financial Management Regulation (DOD FMR), volume 15,
chapter 1, state that IMET provides training to students on a grant basis. The DOS
guidance also states that IMET is a grant aid program, and the annual Report on U.S.
Overseas Loans and Grants, compiled by the U.S. Agency for International Development,
reports the status of the IMET program to Congress. However, DOS does not require a
representative of the foreign government to sign a grant agreement, because DOS never
transfers IMET funds to the foreign government. This is based on section 541 of the
Foreign Assistance Act, which authorizes the President to furnish “on such terms and
conditions consistent with this Act as the President may determine…military education
and training to military and related civilian personnel of foreign countries.” The Foreign
Assistance Act provides that the education and training may be furnished on an in-kind
basis rather than providing funds to a foreign government under a grant agreement.

DSCA is the fundholder and is responsible for managing the IMET program. The Joint
Security Assistance Training (JSAT) regulation states that DSCA is responsible for
establishing policy and for directing and supervising the administration and
implementation of security assistance training, which includes the IMET program.
DSCA issues IMET policies to the security assistance community through the Security
Assistance Management Manual.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses at DSCA. The organization did not have the following controls over the
IMET program: procedures requiring a review to determine whether changes to training
are charged against the correct appropriation, and requiring that the purpose of the
training be documented; reviews to ensure that Military Departments are following
existing policies; and periodic reviews of IMET obligations. Implementing the
recommendations in the Finding will improve DSCA IMET program management. A
copy of the final report will be provided to the senior official responsible for internal
controls in DSCA.




                                             2
Finding. DSCA Management of the
International Military Education and Training
Program
DSCA did not provide clear and accurate guidance to the Military Departments and did
not properly oversee the International Military Education and Training program
operations to ensure that training was accurately and consistently funded, reported, and
recorded. Manuals and regulations were inconsistent with requirements for operating
grant programs and contained conflicting guidance for processing training funds.
Additionally, DSCA did not ensure that Military Departments consistently applied
existing regulations for student reporting requirements, documenting changes to student
training programs, recording obligations, and the periodic review of obligations. The
lack of oversight allowed these issues to continue and may have caused violations of the
Antideficiency Act.

Criteria
Guidance for managing IMET funds can be found in the Government Accountability
Office (GAO) Principles of Appropriations Law, the DOD FMR, and the JSAT.

GAO Principles of Appropriations Law (GAO Red Book)
The GAO Red Book states that a Federal grant is a form of assistance authorized by
statute in which a Federal agency (the grantor) transfers something of value to a party
(the grantee) for a purpose, undertaking, or activity of the grantee that the Government
has chosen to assist. It states that the “thing of value” is usually money, but may,
depending on the program legislation, also include property or services.

Volume II, chapter 7, states that there must be documentary evidence of the grant award.
The agency awarding the grant must take more action than reserving the funding in the
accounting system. Chapter 10 of the GAO Red Book cites Comptroller General
Decision B-289801, which states, “…we have routinely permitted agencies to award
grants using fiscal year funds irrespective of the fact that the funds would not be
expended until some time after the end of the fiscal year.”

When grants are changed after the period the funds are available, there are three areas of
concern that must be satisfied before a change to a grant may be viewed as a
“replacement grant,” which would not require a new obligation:

          bona fide need for the project must continue,
          the purpose of the grant must remain the same, and
          the revised grant must have the same scope.

Agencies may not charge the original appropriation if a grant amendment changes the
scope of the grant, or if it makes the award to a different grantee after the appropriation


                                              3
funding the original grant has expired. If the agency does not recognize that the change
creates a new obligation when the change is made, there is a potential Antideficiency Act
violation. However, there are certain situations where the change is a replacement grant,
because it is substantially identical in scope and purpose to the original grant, and the
original appropriation remains chargeable.

DOD Financial Management Regulation
The DOD FMR requires obligations to be recorded in the financial accounting systems
within 10 days of the event that created a legal obligation (volume 3, chapter 8).
Volume 12, chapter 5 further specifies that an obligation for a grant program should be
recorded when the agreement is signed and outlines the DOD regulations related to grants
and cooperative agreements. Volume 15, chapter 1 identifies IMET as a program that
provides military training on a grant basis and outlines the procedures for processing
security assistance programs.

Joint Security Assistance Training Regulation
The JSAT states that DSCA is responsible for establishing security assistance training
program policy and for directing and supervising the administration and implementation
of the security assistance training program (which includes IMET) within the policies
developed by the Under Secretary of Defense for Policy.

Program Guidance and Grant Requirements
DSCA guidance for IMET was not consistent with the legal requirements for processing
grants. Guidance did not require grants to be reviewed when training programs changed,
and it did not require the purpose of student training to be clearly defined and
documented. In addition, regulations unnecessarily required training courses to start by
the end of the first quarter of the next fiscal year to allow the use of prior-year funds.

Program Changes
DSCA did not require a review of the grants when training programs changed to
determine whether the change affected the grant’s purpose, scope, or bona fide need. The
GAO Red Book states that if there is a change to the scope or purpose of the award after
the original agreement’s appropriation has expired, the new agreement may not charge
the original appropriation. There were 20 of 135 samples where the student’s training
was changed, but the Military Departments did not document whether the changes
affected the agreement. In one example, a student’s original agreement was for a
10-week international defense management course. While the student was in training, the
Navy expanded the student’s agreement by adding a 21-month program for a master’s
degree in systems acquisition at the Naval Post Graduate School. 1 In another instance, a
student’s original agreement was for a language course, a basic officer course, an
observation course, and an infantry officer course. After the student completed the
language training, the Navy reduced the student’s remaining training to only one course:
the Expeditionary Warfare School. 2
1
    Student number 2004-EZ-2406.
2
    Student number 2005-AM-1501.


                                            4
In both of these instances, the Military Department changed the training program during
the fiscal year after the year it approved the original agreement. If the changes to these
training programs affected the scope or purpose of the original agreement, the Military
Department should have approved a new agreement using funds available at the time of
the change.

Both of these changes to the students’ training programs may have caused a violation of
the Antideficiency Act. During our discussions with Military Department personnel, they
stated that DSCA must approve all training tracks. However, in our discussions with
DSCA personnel, they stated that the Military Departments are in a better position to
verify the training programs than DSCA. As demonstrated by our discussions, there was
a lack of guidance about the organization’s responsibilities for the specific training
programs offered to foreign countries. The Military Departments and DSCA each
considered the review of training to be the other’s responsibility.

Purpose of Training
DSCA did not require the Military Departments to clearly define and document the
purpose of student training when awarding the grants. Section 31, title 1501, paragraph
(a) (1), United States Code requires that agreement obligations be supported by
documentation and be proper in purpose, time, and amount. Neither DSCA nor the
Military Departments provided any documentation clearly stating the overall purpose of
the training for our sampled students. For example, there were two instances in our
sample where the Military Department scheduled the student for training at the Florida
Institute of Technology but did not identify specific courses. Without this
documentation, there is no way to show the purpose for the agreement or to determine
whether subsequent changes to the training should be funded with the original
appropriation or with the appropriation available at the time of the change.

Training Start Dates
DSCA policy includes requirements for scheduling student training that are not required
for grants. Based on DSCA policy, both the Defense Finance and Accounting Service
(DFAS) 7000.4-R and the JSAT regulations require the student’s initial training course to
begin prior to the beginning of the second quarter of the fiscal year after the end of the
year that funded the training. However, the GAO Red Book states that the time
availability of the appropriation governs the grantor’s obligation and expenditure of funds
and does not limit the time in which the grantee must use the funds. It cites Comptroller
General Decision B-289801, which states that agencies are permitted to award
agreements using current-year funds even though they will not be expended until the
following year. Therefore, the requirement for students to start classes within the first
quarter of the following fiscal year adds an apparently unnecessary restriction to the
Military Departments that schedule the training.




                                             5
Application of Existing Guidance
DSCA did not ensure that Military Departments consistently applied existing regulations.
The Military Departments did not consistently apply existing regulations for student
reporting requirements, documenting changes to student training programs, recording
obligations, and the periodic review of obligations.

Student Reporting Dates
DSCA did not provide clear guidance regarding when it officially considered students to
have started class. Both DFAS 7000.4-R and JSAT section 4-9(5)(c) require the
student’s initial training course to begin prior to January 1 of the fiscal year after the end
of the year that funded the training. JSAT section 5-4(d) has slightly different
instructions, stating that the student must report to training prior to January 1 to use the
funds. The student’s report date is usually one or more days before the start of training.
This caused confusion for the Military Departments as to what funds were available to
pay for some of the training programs. There were 16 out of 135 judgmentally selected
student-training programs where the student reported for training prior to January 1, but
the first training class did not begin prior to January 1 of the fiscal year after the end of
the year that funded the training. Although this did not result in a legal violation, it
illustrates DSCA’s lack of management of this program.

Documented Training Changes
DSCA did not ensure that the Military Departments maintained all necessary
documentation required to authorize training adjustments. IMET training schedules
occasionally need to be adjusted, depending on the student’s progress. This causes the
need for classes to be extended or rescheduled. In rare situations the student is sent
home, and the remainder of the training cancelled. The JSAT requires the Military
Departments to document all amendments and endorsements to the students’ invitational
travel orders in writing, have them signed by an authorized representative, and distribute
them in the same manner as the original invitational travel order. We found two cases
where there was no documentation available authorizing the change in the training. In
two additional cases the Military Department created the amendments during our review,
even though the change had occurred months earlier. The Military Departments’ failure
to promptly document program changes could create a problem for students if they need
to prove they are still authorized to be in training.

Recording of Obligations
DSCA also did not require the Military Departments to follow a standard operating
procedure in recording IMET obligations. The Military Departments did not record
obligations at the time the legal liability arose and were inconsistent in the way they
recorded the obligations.

Funds for grants should be obligated when the grantor and grantee reach the agreement.
Because the Military Departments usually agreed to and scheduled the training during the




                                               6
annual Training Program Management Review, they should have recorded the obligation
at that time.

Because the legal obligation arises at the time the U.S. Government enters into a grant to
provide training to personnel from a foreign country, organizations should record
obligations at that point. The DOD FMR, volume 3, chapter 8 requires that obligations
be recorded in the financial accounting records within 10 days of the incurrence of a legal
obligation. In addition, the DOD FMR, volume 12, chapter 5 states:

               Accounting for a DOD grant or cooperative award begins with the
               execution of an agreement or the approval of an application or similar
               document which sets out the amount and purpose of the award, the
               performance period, the obligations of the parties to the award, and
               other terms.

The Military Departments’ practice was to record the obligation once they received
confirmation from the school that a space was available for the student. This can occur
months after reaching an agreement with the foreign country. When the agreement is
signed, the U.S. Government is legally obligated to provide the training, and the
obligation should be recorded in the financial records to comply with the DOD FMR.
Failure to record obligations on time can lead to inaccurate financial reports. We found
14 out of 135 sampled student training programs, valued at almost $300,000, where the
Military Departments agreed to the training at the Training Program Management
Review in one fiscal year, but did not obligate the funds until the next fiscal year.

Each of the Military Departments recorded obligations differently. The Navy recorded
IMET transactions directly against the allotment. This practice eliminated the recording
of commitments in its system. The Army relied on the installation that provided the
training to record the obligation. The Air Force recorded each IMET obligation directly
as an accrued expenditure unpaid. The inconsistent recording of obligations by the
Military Departments misrepresented the status of these obligations when DSCA
consolidated the financial transactions on the Standard Form (SF) 133, “Report of Budget
Execution and Budgetary Resources” for the entire IMET program.

The Army’s procedures for recording the obligations resulted in additional posting
irregularities. In our sample of 45 students in IMET training at the start of FY 2006, we
had 13 Army bases represented. Some of the bases recorded the training as
commitments, some as obligations, and in one case, the base did not record an obligation
until it had posted the disbursement from IMET funds and made a collection into its
operating appropriation.

Because of the implementation of the Defense Security Assistance Management System-
Training Module (DSAMS-T), the Army’s processes have changed significantly since we
reviewed our sample. The new system will enable the Army to better control obligations
for the majority of the IMET program. However, student training provided directly
through Army major commands will continue to use the old process of transferring the




                                                 7
funds for obligation by the command, so they still will not be able to record the
obligation when the agreement is signed.

Changing to the DSAMS-T system did not affect Navy obligation practices. The Air
Force has not converted to DSAMS-T, but it has begun to revise its practices in
anticipation of conversion. The Air Force has also changed its procedures to record
IMET obligations as unliquidated obligations outstanding in the financial accounting
system.

Reviewing Obligations
DSCA did not require the Military Departments to follow a standard operating procedure
in reviewing IMET obligations. The DOD FMR, volume 3, chapter 8 requires DOD
fundholders to review all commitments and obligations three times a year for the
appropriations for which they are responsible. This clearly requires the IMET
appropriation to be included as part of the DOD triannual review process. However,
DSCA personnel stated that the IMET obligations are only reviewed at the request of the
DOS.

We received evidence that two of the three Military Departments performed a full review
of IMET unliquidated obligations as required by the DOD FMR. The other Military
Department stated it had not been required to perform a triannual review. Furthermore,
its review of obligations and disbursements entailed comparing its operational records to
its financial records to identify inconsistencies. The SF 133 report on the status of
budgetary requirements created at the end of FY 2006 still reflected more than $4.3
million in unpaid obligations for the expired FYs 2002 and 2003, even though there were
no students funded by these appropriations who were still in the IMET program.
Triannual reviews are required to make sure that fundholders accurately and completely
record obligations and deobligate funds as necessary. The amounts obligated in these
appropriations should have been deobligated after all student training funded from the
fiscal years had been completed.

Conclusion
DSCA is responsible for the management of the IMET program, which includes
establishing policy, and directing and supervising the administration and implementation
of the security assistance training program, including IMET. However, there were
inconsistencies among DSCA guidance and departmental regulations and the legal
requirements for processing grants. There were also areas where DSCA did not properly
direct the Military Departments’ implementation of existing guidance and regulations.
DSCA should provide better guidance and oversight of the IMET program to ensure that
IMET funds are used properly.




                                             8
Management Comments on the Finding and Our
Response
DSCA management provided general comments to the finding, in addition to specific
comments on our recommendations (discussed below). These comments were responsive
to the intent of our audit finding and recommendations. DSCA recognized the
importance of internal controls in managing the IMET program and stated that the
implementation of DSAMS-T will strengthen the programmatic and financial controls
over IMET by automating them. DSCA also recognized that such controls need to be
part of each assessable unit’s annual review and vulnerability assessment. DSCA stated
that it plans to update its guidance through changes to the Security Assistance
Management Manual and DOD FMR. DSCA further provided an extensive overview of
the IMET funding process.

DSCA recognized several weaknesses that existed in the IMET program and addressed
how they will be corrected. One weakness was maintaining adequate documentation for
changes to student training. This will be corrected through the use of DSAMS-T, which
keeps a record of all changes made. DSCA also recognized that generic course
descriptions, which prevent the true purpose of training from being easily determined,
had been used. DSCA stated that it will review the training description codes and try to
reduce the use of generic descriptions by adding specific course descriptors where
possible. DSCA stated that it will also require Military Departments that use a generic
course descriptor to provide additional information about the purpose and intent of the
training. DSCA also provided a thorough review of the two students’ training programs
we identified in our finding.

DSCA agreed that obligations must be in writing and described the process for IMET
obligations. An obligation occurs when the SAO accepts training on behalf of a country.
At the time the offer of training is made, the funding should be committed. Once the
training has been accepted, the commitment becomes an obligation. DSCA is working
on a standard policy to direct all the Military Departments to record obligations in the
same manner. DSCA also agreed that IMET obligations should be reviewed as part of
the triannual review. All IMET fundholders will now be required to submit certified
copies of their reviews to DSCA.

Our Response
We agree with management’s review of the IMET program. The actions that DSCA has
already initiated, along with those which management plans to take in the future, are
consistent with our recommendations and should improve the oversight and internal
controls of the IMET program.




                                            9
Recommendations, Management Comments, and Our
Response
We recommend that the Director, Defense Security Cooperation Agency:

       1. Provide guidance to revise regulations and manuals to reflect the legal
requirements of processing International Military Education and Training funds as
grants. Specifically, the Director should:

              a. Require agreements to be reviewed when training programs
change, to determine whether that change affected the grant’s purpose, scope, or
bona fide need, and to determine whether a new grant using current-year funds is
required.

              b. Review the student reporting sections of the Joint Security
Assistance Training to determine whether they are necessary.

DSCA Management Comments
Management agreed with our specific recommendations and has made or is in the process
of making the following improvements. The first is the implementation of a new system,
DSAMS-T. The system requires appropriate approvals when changes are made to
country/student programs and provides a report highlighting those changes. The second
improvement was to reiterate and improve existing policy to require that all changes to
country/student programs be approved in writing. DSCA reviewed the student reporting
sections of the JSAT (specifically, paragraph 4-9(5)(c) and determined that the section is
a necessary policy for good programmatic control. Management recognized that its
policy is more restrictive than DOS guidance.

Our Response
Management’s comments are fully responsive to our recommendation and the
improvements will help ensure that proper consideration is given to the time and purpose
requirements for IMET funds.

       2. As required by the DOD Financial Management Regulation, volume 14,
chapter 3, request a preliminary review of the funding of the student training
programs identified in the report (Navy students 2005-AM-1501 and 2004-EZ-2406)
to determine whether they violated the Antideficiency Act.


DSCA Management Comments
Management agreed with the need to review these cases for possible Antideficiency Act
violations. It reviewed these two cases, provided a detailed analysis of the facts and
circumstances, and determined that no Antideficiency Act violations exist. In the first
case, a country dropped one of its two scheduled students and added an additional class
for the remaining student. These changes occurred within the fiscal year of the


                                           10
appropriation providing the funding. In the other case, subsequent to the expiration of the
IMET appropriation funding the original curriculum, classes were deleted and replaced
by different classes, based on the qualifications of the student. Management has
requested that the Navy process a change to use the appropriation for the fiscal year in
which the changes occurred to be consistent with guidance it provides to the Military
Departments.


Our Response
We have further reviewed these two cases and agree that they did not involve potential
violations of the Antideficiency Act based on applicable grant principles. As a result,
there is no requirement that management request a preliminary review in accordance with
the DODFMR. Management’s actions in response to this recommendation, combined
with the actions taken with respect to our other recommendations, are fully responsive.

      3. Monitor the execution of the International Military Education and
Training program. Specifically, the Director should:

                a. Verify that, if the policy requiring student training to begin within
the first quarter of the following fiscal year is necessary (refer to Recommendation
1.b.), the policy is clarified and the applicable regulations are revised.

               b. Verify that the Military Departments are documenting all changes
to students’ training programs.

              c. Verify that the Military Departments are reviewing all
unliquidated obligations, as required by the DOD Financial Management
Regulation.


DSCA Management Comments
Management agreed with our recommendations and has taken the following actions. As
stated above, management believes the policy requiring student training to begin within
the first quarter of the following fiscal year is necessary and will include this policy in a
revision of its Security Assistance Management Manual financial policy guidance.
Management previously discussed that implementation of the DSAMS-T program will
ensure that all changes to students’ training programs are documented and reviewed. In
addition, it prepared a memorandum to all fundholders directing that triannual reviews of
all funds issued by DSCA must be completed and certified, with copies provided to the
appropriate DSCA budget analyst.


Our Response
Management’s comments and the actions it has taken with regard to monitoring
execution of the IMET program are fully responsive to our recommendations. The



                                             11
improvements implemented or in process will be an important part of the overall
management process to ensure that funding for the IMET program is utilized properly.

        4. Establish consistent accounting practices in accordance with generally
accepted accounting principles that each Military Department should adopt for
recording and processing International Military Education and Training
transactions. Require the Military Departments to record all obligations when the
legal liability arises and within the time frames required in the DOD Financial
Management Regulation.


DSCA Management Comments
Management agreed with our recommendation and is issuing policy to emphasize the
proper recognition of an obligation in accordance with generally accepted accounting
principles. It plans to utilize the newly implemented DSAMS-T system to manage the
Military Departments’ obligations on a timely basis.

Our Response
Management’s comments are fully responsive. DSCA’s publication of a formal policy
and enforcement of that policy, along with the use of the DSAMS-T system, will
implement the intent of our recommendation with regard to recognizing obligations on a
timely basis.




                                          12
Appendix A. Scope and Methodology
We conducted this financial audit from July 2006 through March 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the International Military Education and Training (IMET) program to
determine whether funds were being properly managed, utilized, and accounted for. We
reviewed the guidance, procedures, and processes used to execute the IMET program.
We interviewed personnel and gathered data from the following: Security Assistance
Training Field Activity, Fort Monroe, Virginia; Naval Education and Training Security
Assistance Field Activity, Naval Air Station, Pensacola, Florida; Air Force Security
Assistance Training Squadron, Randolph Air Force Base, Texas; Defense Security
Cooperation Agency Headquarters, Arlington, Virginia; and Defense Finance and
Accounting Service, Denver, Colorado. The testing phase of our audit was delayed
because we encountered significant legal issues related to the regulatory framework for
the use of IMET funds. Various Offices of General Counsel were involved to make a
final determination that IMET funds were properly executed in accordance with financial
grant principles before we could proceed in testing.

We selected a judgmental sample of 135 students from a universe of 1932 students (45
from the Army, the Navy, and the Air Force), that were active IMET students as of
September 1, 2006. We examined the Invitational Travel Orders, accounting and
disbursing records, and other supporting documentation for our sample. We validated the
data in each Military Department’s training management systems and identified training
costs, course dates, and obligation and disbursing dates for all courses of the sampled
students. Because this was a test of procedures and controls, we are not projecting the
results of our sample across the universe.

We compared existing regulations and departmental policies to the actual practices the
Military Departments used to execute the program. We further compared the consistency
of operations among the Military Departments and reviewed disbursements made by the
DOS on behalf of the IMET program to verify the timing of the disbursements. We
evaluated and confirmed the procedures used to fund training with no-year funds (those
funds permitted to be carried until expended) by tracing selected sample items. We also
reviewed the financial reporting of the IMET funds on the SF 133, Report on Budget
Execution and Budgetary Resources.




                                          13
Use of Computer-Processed Data
To perform this audit, we used data that originated in the Air Force Training Control
System, Navy Student Training Analysis & Tracking Information System, and the DSCA
Defense Security Assistance Management System-Training (DSAMS-T). These are the
systems used to track international students being trained by the United States. We used
the data to select a sample for our review. To determine the validity of the 135 sample
items we selected, we compared the system data to source materials such as the
invitational travel order, forms evidencing funding, and financial obligation and
disbursement documents. We also compared applicable data in the tracking systems to
the data in the Army (Accounting Transaction Ledger Archival System and Operational
Data Store), Navy (Standard Accounting and Reporting System-Field Level), and Air
Force (General Accounting and Finance System) financial systems which were used to
verify the costs charged to the IMET program. This assessment indicated the data was
sufficiently reliable to accurately reflect the recorded obligations and disbursement
amounts for the purpose of our review.

Use of Technical Assistance
The Office of Legal Counsel, Office of the Inspector General, assisted in the review of
the various legal issues regarding the funding of the training for IMET students.


Prior Coverage
No prior coverage has been conducted on IMET funds during the last 5 years.




                                           14
Defense Security Cooperation Agency Comments




                  Click to add JPEG file




                                 15
Click to add JPEG file




               16
Click to add JPEG file




               17
Click to add JPEG file




               18
Click to add JPEG file




               19
Click to add JPEG file




               20
Click to add JPEG file




               21
Click to add JPEG file




               22
Click to add JPEG file




               23
Click to add JPEG file




               24
